No.

IN THE
SUPREME COURT OF THE UNITED STATES

John H. Schoppe, Pro Se
- PETITIONER
VS.
State of Utah,
Workforce Services,
Medicaid,
United States of America,
Social Security,
Medicare,
Internal Revenue Service,
Department of Justice,
Et al.,

■5 h \H i'S 'i
v-y Cj y Li yyj

- RESPONDENTS)
ON PETITION FOR A WRIT OF CERTIORARI TO
United States Court of Appeals for the Tenth Circuit
PETITION FOR WRIT OF CERTIORARI
John H. Schoppe
983 West Willow Garden Paseo
Farmington, Utah 84025
801-462-7039 - Cell

fi Wi im\ H
ri

FILED
MAR 1 9 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

tiba

QUESTION(S) PRESENTED
Petitioner, John H. Schoppe, Pro Se, files the following Complaint against defendants, the
State of Utah (“Utah”), Workforce Services (“WFS”). Medicaid (“Med”), the United States of
America (“USA”), Social Security (“SS”), Internal Revenue Service (“IRS”), Department of
Justice (“DOJ”), and Et al. (“EA”) meaning all entities, Administrative Agencies, and parties
included by practice, definition and/or acts such as the University of Utah, Division of
Occupational & Professional Licensing, jointly and severally.
Petitioner seeks (a) compensatory damages and punitive damages in an amount not less
than $200,000,000.00, (b) prejudgment interest on the principal sum awarded by the Jury from
July 4,2020 to the date of Judgment at the rate of interest provided in Federal, State, and/or Local
Statue, Rule, or Regulation, (c) injunctive relief, and (d) court cost - arising out of defendants’
abuse, negligence, incompetence, constructive conspiracy, malfeasance, deprivation of
petitioner’s life, liberty, and pursuit of happiness.

LIST OF PARTIES

■All parties appear in the caption of the case on the cover page.
□All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

See the Federalist Papers regarding issues raised in Complaint, notably in Separation of Powers.

TABLE OF CONTENTS

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A

United States Court of Appeals for the Tenth Circuit

APPENDIX B

United States District Court District of Utah - Northern Division

TABLE OF AUTHORITIES
CITED

CASES - NONE CITED

STATUTES AND RULES
The Constitutions of the
United States & Utah

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
■For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A to
the petition and is
■reported at 20-4111, Schoppe v. Utah, et al
Dist/Ag docket: 1:20-CV-00082-DB
The opinion of the United States district court appears at Appendix B to
the petition and is
■reported at 1:20-cv-00082-DBB
JURISDICTION
■For cases from federal courts:

The date on which the United States Court of Appeals decided my case was
November 24th, 2020
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
See the Federalist Papers regarding issues raised in Complaint, notably in Separation of Powers.

STATEMENT OF THE CASE
Petitioner, John H. Schoppe, Pro Se, files the following Complaint against defendants, the State of Utah
(“Utah”), Workforce Services (“WFS”). Medicaid (“Med”), the United States of America (“USA”), Social
Security (“SS”), Internal Revenue Service (“IRS”), Department of Justice (“DOJ”), and Et al. (“EA”) meaning all
entities, Administrative Agencies, and parties included by practice, definition and/or acts such as the University
of Utah, Division of Occupational & Professional Licensing, jointly and severally.
Petitioner seeks (a) compensatory damages and punitive damages in an amount not less than
$200,000,000.00, (b) prejudgment interest on the principal sum awarded by the Jury from July 4,2020 to the date
of Judgment at the rate of interest provided in Federal, State, and/or Local Statue, Rule, or Regulation, (c)
injunctive relief, and (d) court cost - arising out of defendants’ abuse, negligence, incompetence, constructive
conspiracy, malfeasance, deprivation of petitioner’s life, liberty, and pursuit of happiness.

REASONS FOR GRANTING THE PETITION
Because the synergistic effect of the bureaucratic agencies is like a boa constrictor snake squeezing the
very life, liberty, and pursuit of happiness from the people and especially seniors. Readily documented in the
books cited and book presented as Exhibit 1 in the district court complaint. Over 4,000 pages in the books and
sources cited of studies and documentation of the pervasive and ubiquitous results of the past fifty years of
betrayal, and bastardization of the principles and practices implemented in the Constitutions of the United States
of America and the state of Utah. The use of Fed. R. App. P. Rule 36 is a paradigm case of what the Assistant
Attorney General said in one of my MPA classes, “We can almost always find a way to have the case resolved our
way”. The judges in both the district court and the appeals court used a “Rule” to dismiss this case as frivolous,
without addressing a single issue presented. BETRAYAL!

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted

JohhrH. Schoppe
Date: March 18th, 2021

